<html>
<title> - 2014 AND BEYOND: U.S. POLICY TOWARD AFGHANISTAN AND PAKISTAN, PART I</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  2014 AND BEYOND: U.S. POLICY TOWARD AFGHANISTAN AND PAKISTAN, PART I

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2011

                               __________

                           Serial No. 112-97

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
71-039                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
ROBERT TURNER, New York<greek-l>As 
    of October 11, 2011 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Zalmay Khalilzad, Ph.D., counselor, Center for 
  Strategic and International Studies............................     6
Lieutenant General David W. Barno, senior advisor and senior 
  fellow, Center for a New American Security.....................    14
Ashley J. Tellis, Ph.D., senior associate, Carnegie Endowment for 
  International Peace............................................    24
C. Christine Fair, Ph.D., assistant professor, Security Studies 
  Program, Edmund A. Walsh School of Foreign Service, Georgetown 
  University.....................................................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Zalmay Khalilzad, Ph.D.: Prepared statement........     9
Lieutenant General David W. Barno: Prepared statement............    16
Ashley J. Tellis, Ph.D.: Prepared statement......................    26
C. Christine Fair, Ph.D.: Prepared statement.....................    38

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63


  2014 AND BEYOND: U.S. POLICY TOWARD AFGHANISTAN AND PAKISTAN, PART I

                              ----------                              


                       THURSDAY, NOVEMBER 3, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The committee will come to order. This is the 
Committee on Foreign Affairs, the Subcommittee on the Middle 
East and South Asia. We want to welcome everyone here this 
afternoon.
    I have a couple of housekeeping items here to get to before 
the ranking member and myself will give our opening statements 
and we will turn to the witnesses. We also understand that we 
may well be interrupted by votes on the floor here shortly, so 
we are going to try to get in as many things as we can before 
that happens.
    I would first--I want to formally introduce our newest 
subcommittee member, the gentleman from New York Mr. Turner. We 
look forward to working with Mr. Turner on this subcommittee, 
hopefully for years to come, and we welcome you here this 
afternoon, Congressman Turner. Anything you would like to say?
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Chabot. Welcome. All right. Well done.
    We would also like to recognize some very distinguished 
visitors who are here to observe the subcommittee this 
afternoon. And we would like to welcome a delegation of guests 
from Afghanistan who serve on the national security committees 
in the Afghani Parliament, members of both the Commission on 
Internal Affairs in the lower House and the Commission on 
Internal Security, Defense Affairs and Local Organs of the 
upper House.
    We want to welcome them to the Subcommittee on the Middle 
East and South Asia here, and we are very delighted to have 
you, and if you wouldn't mind standing, we would like to 
recognize you.
    And last, but not least, I would like to note that the 
subcommittee is honored to have visiting here today a pair of 
scholars who are studying international politics at George 
Mason University in Fairfax, Virginia. They would be 
embarrassed if I mentioned them by name, so I won't, but they 
know who they are. We welcome you here this afternoon, ladies. 
You don't have to clap for them, but we do welcome them.
    And also I will go ahead and give my opening statement. I 
recognize myself for 5 minutes, and then we will recognize the 
very distinguished ranking member Mr. Ackerman for the same 
purpose.
    I want to welcome all my colleagues to this hearing. One 
week ago the House Committee on Foreign Affairs heard the 
testimony of Secretary of State Clinton on the administration's 
policy toward Afghanistan and Pakistan. Although the details 
continue to change, the fundamental underlying policy remains 
the same, and it is driven by one key objective, withdrawal by 
the end of 2014.
    Unfortunately, although the 2014 withdrawal date may be 
politically expedient, it is, in my view, strategically risky. 
The counterinsurgency strategy that President Obama announced 
at West Point in December 2009 depends on two key objectives, 
providing population centric security to create the space for 
governance, and an enduring commitment to fighting the 
insurgents to ensure that there is no doubt that they will 
ultimately lose.
    Both of these are determined by setting and, more 
importantly, stating a withdrawal date. If Afghans and regional 
actors do not believe we are committed to their safety, then 
they are likely to accommodate insurgents in an attempt to 
hedge their bets in advance of our anticipated departure. 
Similarly, if the insurgents believe that we will depart by a 
certain date, they will likely be confident in their ultimate 
victory. This last point is especially important.
    Reconciliation, which is the administration's current means 
of bridging the gap between the status quo and the 2014 
withdrawal date, is, if at all possible, only so if the 
insurgents face certain defeat.
    As former Secretary of State Henry Kissinger recently 
noted, ``if you negotiate while your forces are withdrawing, 
you are not in a great negotiating position.''
    I will confess that trying to make sense of the 
administration's policy calls to mind Yogi Berra's famous 
admonition that ``when you come to a fork in the road, take 
it.'' This is what we appear to be doing, which is to say that 
it is not clear to me what we are doing.
    The administration initially refrained from a strict 
counterterrorism strategy and opted instead for a more robust 
counterinsurgency campaign. It has not, however, allocated 
enough time, resources or energy to properly implement this 
policy. It appears to lack what Ambassador Crocker has referred 
to as ``strategic patience.''
    Transition has begun, yet it is taking place under 
conditions that have yet to be defined alongside inconclusive 
information on the current conditions. In short, it is unclear 
what we are doing, when we are doing it, how we are doing it, 
and even when we are trying--what we are trying to accomplish 
beyond withdrawal as soon as possible.
    As one reporter recently noted, the current strategy is an 
attempt to fold disparate policy elements into a comprehensive 
package as the administration tries to fashion an exit that 
will not leave Afghanistan open to civil war or the 
reestablishment of terrorist bases. Indeed it appears as though 
the administration is, at best, slouching toward the door 
instead of running to it.
    The situation in which the administration finds itself is 
nothing short, in my view, of a strategic mess. Sound strategic 
thinking dictates that you first define your objective and then 
formulate your policy to achieve it. The current policy, 
however, has it backwards. Until 2014, we will try everything 
possible to salvage something that can be called victory, 
because withdrawal by 2014 appears to be the administration's 
sole objective. The result is a strategic race to the bottom in 
which objectives are stretched and sliced to fit the means that 
the administration is willing to employ on any given day.
    And then there is Pakistan. As I am sure our witnesses will 
explain, the continued sanctuary offered to insurgents on the 
Pakistani side of the Afghan border short-circuits any gains 
that we are able to make against key insurgent groups and 
renders them unsustainable. And although Secretary Clinton 
testified that the administration has made clear to the 
Pakistanis that the time has come for this shelter to cease, I 
remain skeptical. These warnings have been issued for years to 
no avail.
    I am also very concerned about the administration's latest 
plan, which involves using the Pakistani Directorate for Inter-
Services Intelligence, the ISI, to reach out to insurgents. 
Although it may make sense in the context of reconciliation, it 
risks rewarding the very elements which continue to be 
responsible for sheltering insurgents who kill Americans and 
Afghans alike.
    None of this, of course, even begins to address the 
implications of this policy for India, which has been, 
continues to be, and, I hope, will remain a close ally and 
friend of the United States.
    Unlike in some places, U.S. national security interests in 
South Asia are both dire and immediate. If we leave Afghanistan 
too soon, the odds are high that it will once again devolve 
into a state of affairs in which terrorists can once again 
thrive. If that is the case, I fear we may find ourselves not 
discussing our departure from Afghanistan, but our return.
    And I would now yield 5 minutes to the gentleman from New 
York, the distinguished ranking member of the committee, Mr. 
Ackerman.
    Mr. Ackerman. I thank my friend and chairman very much. I 
appreciate his remarks and thank him for calling this hearing.
    Before I begin, I would just like as well to welcome our 
new colleague to the committee. Mr. Turner, welcome. I would 
point out that he is not only new to the committee, but he is a 
neighbor of mine back in my home county of Queens. Welcome, 
Bob.
    There is an old saying well known to all of us: The enemy 
of my enemy is my friend. Unfortunately, this is nonsense. The 
enemy of my enemy is my enemy's enemy. That is it. There are no 
implied obligations or warranties. International politics has 
no freebies.
    To state what should be obvious, but somehow is not, 
Pakistan, meaning both the nominally democratic civilian 
government and the unelected but ultimately decisive Pakistani 
military establishment, is not our friend. They are not our 
allies. They are not our partners. They are not on our team. 
They are not on our side. And no matter how much aid that we 
give them, no matter what military capabilities we provide 
them, and no matter what promises, assurances or pledges we 
make to them, these facts are not going to change. Pakistan is 
on its own side, period.
    Notwithstanding the considerable number of Pakistanis who 
would like to try life in the United States, or the great 
success of the many truly loyal Pakistani Americans who have 
done so and contribute so much to their new country, 75 percent 
of the Pakistanis in Pakistan have an unfavorable opinion of 
our country and believe that the United States is the source of 
that country's problems.
    That is just a little piece of what $22 billion of our 
taxpayers' money has brought us since 2002 in Pakistan. A 
considerable part of those funds have also enhanced Pakistan's 
nuclear weapons delivery capability, notwithstanding either our 
nonproliferation laws or the purported limitations that we have 
insisted upon with regard to the F-16 fighter bombers that we 
have sold them.
    At the same time, there is simply no question that Pakistan 
has been a critical facilitator of our campaign to drive al-
Qaeda out of Afghanistan and to dismantle and eliminate its 
capacity to conduct worldwide terrorist operations. Pakistan's 
tacit cooperation has also been essential to our efforts to 
help establish an independent, democratic government in 
Afghanistan. The bulk of the fuel, ammunition and other 
supplies for our troops are sent through Pakistan. Critical 
counterterrorist assets of ours depend on Pakistan's 
cooperation to operate effectively. Pakistan has been critical 
to the apprehension and delivery to justice of key figures in 
al Qaeda. So Pakistan is essential.
    But Pakistan is also perfidious, and that is our problem in 
a nutshell. While cooperating with us, Pakistan has also been a 
critical facilitator of Taliban and other violent, radical 
Jihadist organizations attacking our troops, seeking to 
undermine the Afghan Government, and conducting terrorism 
against our allies. These facts are not secret. One need not 
have access to classified information to know the details of 
Pakistan's partnership with violent religious extremists. One 
only needs access to newspapers and magazines.
    It is not a secret that the Afghan Taliban has been based 
in Quetta, Pakistan, since Afghanistan and the United States 
drove them out of Afghanistan in 2002. Quetta is not an 
especially big city, and the Taliban presence there isn't even 
particularly discreet. From Quetta the leadership of the 
Taliban every day is orchestrating attacks on our Government 
and on our troops.
    It is not a secret that the Haqqani network is responsible 
for numerous attacks on the Afghan Government and our troops. 
It is not a secret that Lashkar-e-Tayibba, which was 
responsible for the horrific November 2008 massacre of 
civilians in Mumbai, India, an attack that clearly implicated 
the Pakistani military, operates openly in Pakistan.
    The Government of Pakistan has made no effort to interfere, 
disrupt, arrest or shut down any of these groups or their 
activities. It is no secret that Osama bin Laden was living 
comfortably in Abbottabad, Pakistan. Pakistan insists it had no 
knowledge or complicity in his presence there. I would like to 
think that if the world's most wanted criminal in the history 
of criminals purchased a sizable parcel of land and built a 
secure compound less than a mile from the U.S. Naval Academy in 
Annapolis, Maryland, just 32 miles from our Capital, we might 
just know about it.
    Pakistan is not our pal, our buddy, or our chum. It is a 
sovereign state pursuing its own self-defined interests in what 
it perceives to be a tough neighborhood, but they contribute to 
making it tough. And to state yet another obvious fact, 
Pakistan's self-defined national interest has very little 
overlap with our own. In that small area where their interests 
and ours converge, we can and do cooperate. And the rest of the 
time they cooperate in varying levels of commission and 
omission, with the people killing our troops, conducting 
terrorist acts against our allies, and trying to bring down the 
Afghan Government.
    Currently the United States has designated Iran, Syria, 
Sudan and Cuba as state sponsors of terrorism under U.S. law. 
Such a designation requires a ban on arms-related exports and 
sales, strict controls over exports of dual-use items, and a 
prohibition on economic assistance and imposition of 
miscellaneous financial and other restrictions. But for our 
genuine need for cooperation in the campaign against al Qaeda, 
there appears to be very little standing in the way of 
designating Pakistan as a state sponsor of terrorism, very, 
very, very little.
    Were that it was so, but it is time to wake up from the 
naive and sentimental dream that there is friendship and broad 
cooperation and accept reality. Pakistan's national interests 
are generally contrary to ours and that of our actual allies, 
and they pursue those contrary interests through the use of 
violent proxies and terrorism. That is not likely to change. It 
is time for our policy and our assistance to come back into 
relation with reality instead of fanciful expectation.
    Paying Pakistan to kill bad guys makes sense. Bribing 
Pakistan, which is what our aid really is, for license and 
cooperation in the efforts to kill bad guys is also reasonable. 
But we need to rid ourselves of the absurd notion that we can 
change Pakistan, reform its government or create real trust. We 
have neither the capacity nor the capability, and we certainly 
don't have the spare billions to keep throwing away on those 
fool's errands. No more magical thinking. It is time to grow up 
and deal with Pakistan as it is, not as we wish it to be.
    Mr. Chabot. Thank you, Mr. Ackerman.
    The bells that you have heard, or at least the buzzing that 
you have heard, is the votes on the floor. What I am going to 
try to do is get the introductions in here now, and probably, 
Ambassador, we will get your testimony in, which is limited to 
5 minutes. And then we will go over and vote, and then we will 
come back as soon as the votes are over and take the rest and 
then ask questions.
    So I will try to go through these relatively quickly, 
although we have such a distinguished panel, there is an awful 
lot to say about them.
    We will begin with Zalmay Khalilzad. Ambassador Khalilzad 
is president of Gryphon Partners, a consulting and investment 
firm focused on the Middle East and Central Asia. From 2007 to 
2009, he served as the U.S. Permanent Representative to the 
United Nations. Prior to that he served as U.S. Ambassador to 
Afghanistan from 2003 to 2005, and then as U.S. Ambassador to 
Iraq from 2005 to 2007. He also served as U.S. Special 
Presidential Envoy to Afghanistan from 2001 to 2003. Ambassador 
Khalilzad sits on the board of the National Endowment for 
Democracy. He is also a counselor at the Center for Strategic 
and International Studies.
    Next we have Lieutenant General David W. Barno. General 
Barno, a highly decorated military officer with over 30 years 
of service, has served in a variety of command and staff 
positions in the United States and around the world.
    In 2003, he was selected to establish a new three-star 
operational headquarters in Afghanistan and take command of the 
20,000 U.S. and coalition forces in Operation Enduring Freedom. 
From 2006 to 2010, General Barno served as the director of the 
Near East South Asia Center for Strategic Studies at the 
National Defense University. He frequently serves as an expert 
consultant on counterinsurgency and irregular warfare, 
professional military education and the changing character of 
conflict.
    We next have Ashley J. Tellis. Dr. Tellis is a senior 
associate at the Carnegie Endowment for International Peace, 
specializing in international security, defense and Asian-
specific issues. While on assignment to the U.S. Department of 
State as senior adviser to the Under Secretary of State for 
Political Affairs, he was intimately involved in negotiating 
the civil nuclear agreement with India. Previously he was 
commissioned into the Foreign Service and served as senior 
adviser to the Ambassador at the U.S. Embassy in New Delhi. He 
also served on the National Security Council staff as Special 
Assistant to the President and Senior Director for Strategic 
Planning and Southwest Asia. In addition to numerous Carnegie 
and RAND reports, his academic publications have appeared in 
many edited volumes and journals.
    And finally, we have C. Christine Fair. Dr. Fair is an 
assistant professor in the Center for Peace and Security 
Studies within Georgetown University's Edmund A. Walsh School 
of Foreign Service. Previously she has served as senior 
political scientist with the RAND Corporation, a political 
officer to the United Nations Mission to Afghanistan and Kabul, 
and as senior research associate at USIP's Center for Conflict 
Analysis and Prevention. She is also a senior fellow with the 
counterterrorism center at West Point.
    Dr. Fair holds a bachelor in biological chemistry, a 
master's in public policy, as well as a master's and Ph.D. in 
South Asian languages and civilizations, all from the 
University of Chicago.
    As I say, a very distinguished panel here this afternoon.
    Ambassador Khalilzad, if you wouldn't mind beginning. Now, 
everyone gets 5 minutes, so we would ask you to stick within 
that. There is a lighting system. When the red light comes on, 
we ask you to all stop if at all possible, and then we are 
going to go over and vote. We will be back and hear the rest.
    Ambassador Khalilzad, you are recognized for 5 minutes. If 
you will just push the button there, that will turn the mike 
on.

STATEMENT OF THE HONORABLE ZALMAY KHALILZAD, PH.D., COUNSELOR, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Khalilzad. Thank you, Mr. Chairman, Ranking Member 
Ackerman, Mr. Turner. It is a pleasure to be here, and thank 
you for the opportunity to testify. I have submitted a longer 
statement for the record, and, with your permission, I will 
summarize.
    Mr. Chabot. Yes. Without objection, that will be included 
in the record, the full statement.
    Mr. Khalilzad. I am delighted to be here with my 
colleagues, particularly General Barno, with whom I had the 
pleasure of serving in Afghanistan.
    This hearing is about U.S. Policy toward Afghanistan and 
Pakistan 2014 and beyond. The degree to which the U.S. exceeds 
in achieving key objectives over the next 3 years will 
determine policy options beyond 2014.
    We face a range of possible futures and a corresponding 
range of required adaptations and responses. At one end of the 
spectrum, the U.S. and Afghanistan could conclude a long-term 
strategic partnership agreement. Pakistan could support an 
Afghan agreement and bringing U.S.-Afghan relations, as well as 
U.S.-Pakistan relations, more in alignment. And the Afghan 
Government could make progress on governance issues. In such a 
scenario the U.S. role could shift to toward sustaining an 
internal Afghan settlement, turning the Afghan security force--
training the Afghan security forces, providing a regional 
military overwatch against remaining al Qaeda and affiliate 
threats, and promoting Afghan economic development, reducing 
Pakistan's reliance on militants to counter regional rivals, 
and assisting it in establishing enduring reserves of strategic 
strength to pursue its legitimate interests and compete, and 
regional economic integration.
    In both Afghanistan and Pakistan, the U.S. would assist in 
strengthening democratic institutions and accountable 
government. The U.S. in such a scenario would be able to reduce 
its military presence in Afghanistan without assuming a 
significant increase in risk.
    At the other end of the spectrum, Pakistan could continue 
to support the insurgency in Afghanistan, the Afghan Government 
could remain on a path of denial regarding governance issues, 
and reconciliation efforts with the Taliban are unsuccessful.
    In such a scenario, the U.S. would need to consider a 
strategy of isolation and containment against Pakistan. 
Containment would require a larger residual U.S. force, and 
Afghan forces would need to be bolstered to withstand 
Pakistan's possible escalation of pressure.
    But sustaining such a posture will be difficult if the 
Afghan Government continues its refusal to deal seriously with 
issues such as corruption and rule of law. Proceeding with a 
major withdrawal of U.S. troops in such a scenario would likely 
worsen the situation in Afghanistan, especially if other 
responsible regional powers such as India do not compensate for 
the U.S. withdrawal.
    Of course, there are a number of potential scenarios in 
between the two that I mentioned. The U.S., in my judgment, can 
increase the likelihood of a positive scenario in 2014 by 
taking two steps now. First, we should implement a two-stage 
policy to induce Pakistan to support a reasonable Afghan 
settlement. Stage one would consist of a high-level U.S.-Afghan 
effort with Pakistan to determine its legitimate interests in 
Afghanistan.
    Afghanistan and Pakistan should not be a source of security 
problems for each other. As part of a settlement, Pakistan 
would need to end its military support for the insurgents and 
use its influence to bring insurgent groups to the negotiating 
table for reconciliation.
    Since changing the Pakistani posture and getting to an 
Afghan settlement will be difficult, no doubt, the U.S. can 
increase prospects for positive movement by complementing its 
own bilateral efforts with each of these two countries by 
engaging other big power stakeholders in Afghanistan's 
stability--China, India, Russia, European and Asian allies, and 
a number of regional states--and developing a joint approach to 
an Afghan settlement.
    If Islamabad refuses to cooperate, Washington will need to 
consider escalating pressure in stage 2 by dramatically 
reducing military assistance, curtailing and imposing 
additional conditions on support programs to Pakistan through 
international financial institutions such as IMF, increasing 
military operations against the Haqqani network and 
irreconcilable Taliban in Pakistan, reaching out to Taliban 
willing to reconcile without coordinating such effort with 
Pakistan, and decreasing reliance on Pakistan by expanding the 
northern corridor to transport goods to Pakistan.
    Mr. Chabot. Mr. Ambassador, I hate to cut you off.
    Mr. Khalilzad. Can I say one more sentence?
    Mr. Chabot. Yes.
    Mr. Khalilzad. In addition, of course, we will have to push 
the Afghan Government to tackle governance issues that it has 
refused to do. In the aftermath of signing a partnership 
agreement and a sharper focus on Pakistan, in my judgment, 
there will be an opportunity for perhaps decreasing the gap 
between us and the Afghan Government and increasing the room 
for cooperation.
    Mr. Chabot. Thank you very much, Mr. Ambassador. We 
appreciate it.
    [The prepared statement of Mr. Khalilzad follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. We are going to be in recess now where we are 
going to vote. Apparently it is not going to be too long. We 
only have a couple of votes. Thank you. We will be right back.
    [Recess.]
    Mr. Chabot. Okay. The committee will come back to order 
once again. Sorry for the interruption there. And we are back 
now from votes and ready to go, so we are going to go with 
General Barno now. And, General, you are recognized for 5 
minutes.

STATEMENT OF LIEUTENANT GENERAL DAVID W. BARNO, SENIOR ADVISOR 
     AND SENIOR FELLOW, CENTER FOR A NEW AMERICAN SECURITY

    General Barno. Mr. Chairman, Ranking Member, thank you very 
much for granting us all the opportunity to testify today. I am 
certainly honored to be in this distinguished group of long-
term friends here, especially Ambassador Khalilzad, who spent 
19 months together with me in Kabul here some years back. So I 
look forward to our opportunity to talk today.
    Over the last several years, I have had a number of chances 
to speak in front of this committee and others in the House and 
Senate about Afghanistan. I recently returned from a 7-day trip 
to Afghanistan and so have some current outlook based upon 
traveling around the country that I will try and share portions 
of in my opening statement and other aspects in my written 
report.
    I also have two sons that are Army captains in the U.S. 
Army, and both have served in Afghanistan and will continue to 
serve there as our presence is sustained in the coming years. 
So I have got a family connection and a lot of equity in the 
Afghan project for many years to come.
    This report in my written testimony is drawn just from my 
just-completed trip to Afghanistan. I also traveled to Pakistan 
earlier this year and have some insights from that.
    I would start by making the larger strategic point, 
perhaps, about our presence in Afghanistan, and that is that 
the United States continues to have vital national security 
interests at stake in South and Central Asia, and these 
interests transcend our current presence and our current 
military activities in Afghanistan itself.
    The vital importance of protecting these interests must not 
become obscured by too narrow a focus on Afghanistan or our 
impending drawdown. In fact, I would argue that our drawdown 
must be shaped with the ultimate protection of our long-term 
vital interests first in mind.
    I had identified three vital U.S. security interests that 
should dominate our thinking as we continue to adjust our force 
presence in Afghanistan. This narrows down what I think we need 
to do and protect in the region. First, we need to prevent the 
region's use--and the region, I would say here, would include 
Afghanistan, Pakistan, surrounding states--prevent the region's 
use as a base for terror groups to attack the United States or 
our allies, avoiding a repeat of another 9/11.
    Secondly, I think we need to ensure that nuclear weapons in 
the region do not fall into the hands of terrorists or 
otherwise proliferate. And this takes us clearly to Pakistan.
    And, third, I think we have an interest, a vital interest, 
in preventing a nuclear conflict between India and Pakistan.
    Protecting these vital U.S. interests in the coming years 
must be the ultimate objective of our upcoming transition in 
Afghanistan. If the outcome of our transition and drawdown puts 
these vital U.S. interests at risk, we will have failed 
entirely in our mission in Afghanistan, one that has cost the 
United States over 1,300 lives, hundreds of billions of 
dollars, and 10 years of great sacrifice.
    So a few observations, perhaps, from my recent trip. First, 
on success, it is unclear, traveling around Afghanistan, 
visiting with many American units and American diplomats over 
the last week or so--it is relatively unclear that the U.S. or 
the international community has a precise or clear definition 
of the end state of the conflict, one which equals success.
    There are many outlooks on where we are going, what is 
Afghan good enough, what is acceptable or unacceptable in terms 
of the outcomes, but this lack of an agreed-upon definition of 
success, and also an agreed-upon long-term U.S. presence, 
undercuts our aims and our claims of an enduring commitment to 
Afghanistan and to the region.
    There is deep uncertainty about the long-term seriousness 
of the U.S. commitment, and that colors every aspect of our 
involvement and distorts the judgments of our friends and foes 
alike. Signing this strategic partnership agreement is 
extraordinarily important.
    Secondly, on sustainability, nearly all U.S. commanders 
recognize that the significant success that has been achieved 
over the last 18 months is fragile and reversible. Unspoken 
often is the reality that these gains that have been achieved 
at significant cost in blood and treasure by the United States 
ultimately have to be sustained by Afghan security forces. 
While there is an energetic program in place to recruit, train 
and organize these forces, I found less evidence of a structure 
and an organization designed to advise and assist these forces 
in combat as the U.S. begins to draw down its combat presence 
in Afghanistan.
    Today most of the counterinsurgency fight is taken on by 
American units without the Afghan forces playing a central 
role. I think that needs to change in the coming years, and we 
need to focus on preparing the Afghans and getting them into 
the fight, reorganizing our military effort to do that.
    Finally, on troop morale, 10 years into a very hard fight, 
the U.S. military that is deployed in Afghanistan, Army, 
Marines, Air Force, Navy, is a superbly trained and well-led 
force. Their morale is high, and they continue to take the 
fight to the enemy aggressively every day. They are arguably 
the most militarily proficient units we have ever fielded, 
aggressive, focused, tactically skilled, agile and immensely 
professional.
    All Americans should be proud of these young men and women. 
They deserve our full support and undimmed admiration for as 
long as we ask them to sustain this very tough fight. They are 
true American heroes.
    Thank you.
    Mr. Chabot. Thank you very much, General. Thank you for 
your service and your sons as well.
    [The prepared statement of General Barno follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Dr. Tellis, you are recognized for 5 minutes.

    STATEMENT OF ASHLEY J. TELLIS, PH.D., SENIOR ASSOCIATE, 
           CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Tellis. Mr. Chairman, Mr. Ranking Member, thank you for 
inviting us to testify this afternoon on the administration's 
policy toward Afghanistan and Pakistan. I have submitted a 
longer statement, and I request that to be entered into the 
Record.
    Mr. Chabot. Yes. Without objection, the full statement will 
be entered into the record.
    Mr. Tellis. I will focus my oral remarks right now on the 
specific issue of the challenges facing the administration's 
strategy. As you pointed out, Mr. Chairman, in your opening 
statement, the administration's strategy is shaped by the 
realities of the security transition, which are coming in 2014.
    As best one can tell today, the transition will be 
completed on schedule. But whether it will be a successful 
transition is an entirely different matter. I think there are 
two reasons to suspect the success of this transition. First, 
even though Afghan National Security Forces have made 
remarkable progress in recent years, they are still not up to 
the task of independently being able to protect their country 
against internal and external threats. And second, President 
Obama's decision to withdraw the surge troops in 2012 rather 
than after denies U.S. commanders the opportunity to further 
decimate the Taliban, especially in the east, before the 
security transition takes place.
    These two facts, taken together, create an enormous 
conundrum for the success of the transition. And the 
administration has attempted to bridge the gap between what is 
required and what is available by focusing its resources on 
reconciliation with the Taliban. Reconciliation with the 
Taliban is a sensible strategy in principle, but it faces 
enormous obstacles to success in practice. For starters, it is 
not clear whether the Taliban have a genuine interest in 
reconciliation. They also do not believe that they have been 
decisively defeated by the United States at this point in time, 
and they certainly look to the security transition as heralding 
the moment when the United States will leave the region, thus 
leaving a weak Afghan state behind as easy pickings.
    Furthermore, the fact that the security partnership that we 
are negotiating with Afghanistan is likely to leave a long-term 
U.S. presence will make the Afghan Taliban leadership even more 
skeptical of accepting a reconciliation on these terms.
    All these issues, however, are manageable in comparison to 
the challenges posed by Pakistan. Pakistan's commitment to a 
strategy of managed jihadism and its policy of providing 
sanctuary to the Taliban will not change in the near term for 
the very simple reason American objectives and Pakistani 
objectives are objectively incompatible in Afghanistan.
    What the United States seeks to do is to leave behind an 
Afghanistan after 2014, a state that is capable, effective and 
independent. What Pakistan wants in Afghanistan after 2014 is 
an Afghanistan that is anything but capable, effective and 
independent. And for Pakistan, the shura, the Haqqani network 
and all its affiliates are really instruments for enforcing the 
subordination of Afghanistan to Pakistan over the long term.
    Given this fact, the administration's reliance on Pakistan 
to forge a reconciliation policy is a dangerous gamble. It is 
simply not clear that Islamabad can come up with a solution 
that protects its ambitions, while at the same time advancing 
American and Afghan interests with respect to stability.
    So what does that leave us in terms of what we ought to do? 
I think we ought to continue the efforts of reconciliation and 
regional support for reconciliation, but without any illusions 
about their success. I believe Afghan ownership of this process 
is critical, and the administration ought not to dilute it.
    Second and most important, we ought to recommit strongly to 
hardening the Afghan state, which means comprehensively 
strengthening its state capacity and continuing a commitment to 
fund Afghan National Security Forces over the long term.
    Third, we need to ensure that the strategic partnership 
reach of Afghanistan allows the United States sufficient basing 
rights to deploy the appropriate mix of air and ground forces 
both to satisfy our long-term counterterrorism objectives, as 
well as to be able to support Afghan National Security Force 
operations when required. In this connection, I would emphasize 
that we ought to not agree to the current Pakistani demand for 
the cease-fire as a precondition for negotiating with the 
insurgents.
    Fourth, I would urge the administration to strongly 
reconsider the current withdrawal plan to at least permit the 
surge force to stay in Afghanistan beyond 2012, and I would 
urge that we continue the expansion of the northern 
distribution network as a hedge against Pakistan's continued 
failures.
    Where Pakistan is concerned, I would make simply three 
points. First, we need to clearly terminate all conventional 
warfighting military equipment transfers that are paid for by 
the taxpayers; we ought to review the coalition support funds 
that are coming to provide to Pakistan; and, third, we ought to 
support civilian aid only if we can get Pakistan to make 
changes in its own state capacity to mobilize domestic 
resources.
    Thank you for your attention, Mr. Chairman.
    Mr. Chabot. Thank you very much, Doctor.
    [The prepared statement of Mr. Tellis follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Dr. Fair, you are recognized for 5 minutes.

  STATEMENT OF C. CHRISTINE FAIR, PH.D., ASSISTANT PROFESSOR, 
  SECURITY STUDIES PROGRAM, EDMUND A. WALSH SCHOOL OF FOREIGN 
                 SERVICE, GEORGETOWN UNIVERSITY

    Ms. Fair. Thank you, Mr. Chairman, esteemed colleagues. I 
have also submitted a written statement I would like to request 
be entered into the permanent record.
    Mr. Chabot. Yes. Without objection, it is entered into the 
record in full.
    Ms. Fair. The last decade has made it very clear the 
strategic interests of the United States and Pakistan are 
absolutely in opposition. Despite this fact, the United States 
expanded its military posture in Pakistan, which deepened its 
dependence on Pakistan during a period when the latter was ever 
more determined to undermine U.S. goals there.
    This raises obvious questions about how the United States 
can secure its interests in the region when Pakistan is 
dedicated to undermining them. In my written statement, I lay 
out a number of possible engagement strategies toward Pakistan 
in the near and medium terms, and I will simply briefly recount 
them here.
    But I do believe that the year 2014 offers a window to 
reoptimize our position in Afghanistan and forge a more 
sustainable and effective relationship with both Afghanistan 
and Pakistan. However, between now and then, the United States 
willremain poised on the knife's edge of logistical dependence 
upon Pakistan.
    However, a logistical transaction is not the basis for a 
strategic relationship. The United States should be practical. 
It is renting access to Pakistan's air and ground space for its 
operations in Afghanistan and in Pakistan. There should be no 
illusions of anything else.
    This does not mean that the United States should disengage 
in the near term; however, while the U.S. repositions itself in 
Afghanistan, U.S. goals for engaging Pakistan should be modest, 
as detailed in my written statement.
    Looking to the next 10 years, things are no better. As you 
well know, Pakistan presents a dangerous set of threats to U.S. 
interests, worse over the coming decade. There are few 
prospects that Pakistan will be less dangerous.
    U.S. dependence upon Pakistan for its Afghan efforts has 
precluded realistic thinking about how the United States can 
effectively manage its Pakistan predicament, and, 
unfortunately, the ongoing outrage over Pakistan perfidy, 
coupled with the global economic crisis, has promoted 
policymakers to simply propose ceasing or stringently 
conditioning all aid to Pakistan. These urges must be resisted.
    However, this does not mean that the United States should 
continue its decade-long policy of seeking to appease Pakistan 
and induce its cooperation through large-scale economic and 
military assistance. This policy has simply failed for years.
    Over 2 years ago I argued that the United States cannot, 
through various inducements that it has tried, persuade 
Pakistan to abandon its strategic use of militants and other 
noxious policies; that it has to move toward reorienting its 
efforts toward containing and mitigating the various threats 
that emanate from Pakistan. And I believe that that time has 
come. And as the Americans begin to retract their large-scale 
counterinsurgency posture in Afghanistan, we need to gather the 
political fortitude to actually enact these steps.
    First, Washington needs to embrace the fundamental 
transactional nature of its relationship with Pakistan, but 
expect Pakistan to fully deliver on each transaction. A 
strategic relationship is not possible when our strategic 
interests diverge, and, in any event, Pakistan has repulsed 
such offers; for example, the two times a status of forces 
agreement has been offered to Pakistan.
    U.S. efforts to elicit changes in Pakistani society through 
its extended aid, also not likely to fructify. We should try to 
develop democratic institutions only when there is a credible 
Pakistani partner at the other side of the table.
    We should engage the military, but we should treat it like 
a military. There is no reason why the provision of strategic 
systems should continue when those weapons systems are for 
India, not for its insurgency or terrorism problems. The 
remaining training and weapon systems the U.S. provides should 
be for counterterrorism and COIN activities, and we should 
treat the military like the military. This means the Secretary 
of State doesn't meet the Chief of Army Staff. And our goal of 
engaging the military should not be to transform, but, quite 
frankly, to observe.
    But, most importantly, we need to really think hard about 
what it means to contain the threat that emanates from 
Pakistan. We have considerable tools, and there is no reason 
why this Congress couldn't make more: Designating persons in 
the ISI and military where there is credible evidence that they 
have participated in supporting terrorism or nuclear terrorism, 
denying them and their families visas, enforcing current laws, 
routing out Pakistan counterintelligence efforts in this 
country. Waivers are always preferable to simply 
misrepresenting Pakistan's record in terms of certification 
requirements, and, in extremis, stating clearly that Pakistan 
is a state that supports terrorism. This requires political 
courage which can only be done when our posturing on 
Afghanistan begins to change.
    In conclusion, we do have to remember that our ultimate 
goal vis-a-vis Pakistan is that it not become a North Korea, 
one that is removed and disengaged from the international 
community with no incentive to change, so there is a need to 
engage. There is also a need to hold Pakistan accountable for 
its actions.
    And let me put on the table, perhaps thinking about the 
relationship that the United States had with the Soviet Union. 
We had no illusions of amity. We stayed involved. We had a 
diplomatic presence there. We had military ties where 
appropriate. We cooperated where possible with civil society. 
In the case of Pakistan, this could mean modest cooperation on 
peacekeeping operations, climate change, water security, et 
cetera. But most importantly, we need to recognize that our 
interests clash, and that in the very near and continuing 
future, we will be operating against each other as much as we 
cooperate with each other, and I am going to suggest that more 
of the latter than the former.
    So while this is an imperfect paradigm for U.S. relations 
with Pakistan, I think it merits your consideration.
    Thank you.
    Mr. Chabot. Thank you very much, Doctor.
    [The prepared statement of Ms. Fair follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. I want to thank the entire panel now, and we 
will recognize ourselves here back and forth for 5 minutes 
each, and I will recognize myself first for that time.
    In my opening statement I outlined my deep concern over the 
administration's announcement of withdrawal by 2014. This 
strikes me as an overly ambitious plan that signals to the 
entire region that, far from being committed, we plan to leave 
respectively as soon as possible.
    Just this morning it was reported in the Wall Street 
Journal that<greek-l>, quote, deg. ``The Obama administration 
is exploring a shift in the military's mission in Afghanistan 
to an advisory role as soon as next year, a move that would 
scale back U.S. combat duties well ahead of their scheduled 
conclusion at the end of 2014.''
    I am astonished at how this is progressing, with no time 
being allotted to test the waters. More to the point, we are 
doing it with an ill-prepared government, an ill-prepared 
military in their case, not ours, obviously, and a government 
incapable of sustaining its economic needs.
    What do you believe will be the likely result of this? And 
if I could give each of you a relatively short period of time, 
and we will just go down the line there, and we will begin with 
the Ambassador.
    Mr. Khalilzad. Thank you, Mr. Chairman.
    I share your concern about the speed of withdrawal; that I 
think giving the surge forces another fighting season that the 
military had suggested would have been a more prudent approach, 
in my judgment.
    I do not know about the announcement, the press 
announcement today, how seriously to take that, whether it is 
just testing a hypothesis. I don't think that an approach as 
contained in the article today would advance security in 
Afghanistan. It will have the opposite effect, because as long 
as insurgency continues and is getting support from Pakistan, 
we would be accepting a much larger risk should we pursue that 
option as described in the article.
    I do want to say one other thing, Mr. Chairman, with regard 
to withdrawal. As I understand it, we are committed--the 
administration has said it is committed to a strategic 
partnership agreement beyond 2014; that the leadership in terms 
of responsibility for security will transfer to the Afghans, 
and there will be some reduction, a significant reduction 
perhaps, by U.S. forces.
    But as to how much forces will stay to pursue objectives 
with regard to Afghanistan and in the region, that is being 
discussed and negotiated. My own judgment is that it will have 
to be a relatively robust presence for some time to come beyond 
2014, and that is my understanding that that is what the 
administration is committed to. And I think that would be 
prudent, and the sooner we conclude that agreement, the better.
    Thank you, Chairman.
    Mr. Chabot. Thank you.
    General, are you particularly concerned about the potential 
lack of a fighting season next year?
    General Barno. No, and I think there is actually some merit 
in this idea, and let me explain why. The size of the force as 
it steps down will remain the same. What will change 
potentially is the mission assigned the force.
    One of the things that struck me and surprised me in my 
visit last week in Afghanistan was that American forces are 
prosecuting the counterinsurgency fight with American infantry 
battalions in the lead. We are prepared to keep American 
battalions in the lead for a long time.
    I think a change of mission to security force assistance 
over the next year or so, perhaps beginning next summer, next 
fall, to make that remaining military force we have there, 
which is going to be at least 68,000 troops, focus on preparing 
the Afghans and helping to advise the Afghans and enable them 
in this fight is the way to go. I think we would rather find 
out that the Afghans are unable to do this while we have a 
large force there, relatively speaking, with 68,000 than to 
kick this can down the road and let Americans take on full 
responsibility until very late in the game.
    The last point I would make, Mr. Chairman, as Ambassador 
Khalilzad noted, the 2014 date is not a withdrawal to a zero 
number. The end of 2014 is when we transition security lead 
over to the Afghan forces. The residual force for the Americans 
there at that point is undetermined.
    I personally think that force needs to be 25- to 35,000 
Americans who do counterterrorism on the one side and also 
provide advisers and support for the Afghan forces that 
continue the counterinsurgency fight. That shuts the light at 
the end of the Taliban's tunnel if that happens.
    Mr. Chabot. Thank you.
    I yield myself an additional 2 minutes, if it is okay, so I 
can give 1 minute to Dr. Tellis and Dr. Fair.
    Dr. Tellis.
    Mr. Tellis. I think the shift to an advisory role, if the 
report is true, is acceptable if that does not come at the cost 
of precluding combat. That is, the U.S. must be willing to stay 
involved in combat operations.
    Mr. Chabot. And I think the general is nodding in agreement 
there;is that correct, General? And so is the Ambassador. Okay.
    Mr. Tellis. The other point I would make, though, is if we 
go in this direction, it will have to be packaged carefully, 
because the region will draw very different conclusions from 
the conclusions being drawn in this panel. They will see this 
as the first step toward disengagement and will act 
accordingly.
    Mr. Chabot. Thank you very much, Dr. Tellis.
    Dr. Fair.
    Ms. Fair. I very much agree with what General Barno has 
said, although I certainly share Dr. Tellis' concerns about 
messaging. But let me just say very clearly we haven't had a 
Pakistan strategy, and I am very dubious that even if we were 
to defeat a Taliban 3.0, that as long as Pakistan is dedicated 
to erecting an order which is fundamentally orthogonal to our 
own, no matter what we do, at some point when we retract our 
position to a more normalized relationship with Afghanistan, 
Pakistan is simply going to continue doing what it has always 
done, which is supporting violent nonstate actors, which it 
hopes will act on its behalf.
    So it would be a genuine travesty if after all of this 
investment of lives and capital, American, Afghan and 
international, to simply throw it away because we have failed 
to put together a workable Pakistan strategy that makes any 
Afghan strategy functional.
    Mr. Chabot. Thank you very much.
    And the gentleman from New York is recognized for 7 minutes 
so that we can make it even.
    Mr. Ackerman. That is okay, Mr. Chairman.
    It seems to me that unless you set a deadline, nothing ever 
ends. If we didn't have a date that session ended in Congress, 
we would never get anything done. And it seems to me that I 
can't remember a year where 70 percent of the business of 2 
years didn't take place in the last 10 weeks, and most of it 
toward the end of that.
    How would that work if we didn't have a deadline in 
withdrawal? And if we say we should extend the time, what do we 
extend it to? And when that runs out, what do we do then? I 
will ask a different question if I have to.
    General Barno. Well, let me take a stab at that, if I 
could.
    I think 1 year ago I would have said setting a deadline and 
identifying October 2012 as the end of the surge period would 
have been very unhelpful. After coming back from Afghanistan on 
this recent trip, I think it has had value in sharpening the 
focus of the command to determine what are the essential tasks 
that have to be done, where do those troops need to be, and how 
do we start thinking about getting the Afghans into the lead.
    And so I actually return with a view that we need to 
continue to sharpen that focus, and that the force itself needs 
to be changed, and this may entail this mission change we 
talked about to hardening the Afghan state that includes the 
government, but it also includes making sure those Afghan 
security forces are hardened with American advisers, with 
American capabilities, and get into the fight and demonstrate 
their capabilities.
    I think there is value in the end of 2014 as the 
``deadline''<greek-l>, quote/unquote, deg. for the transition 
of the security lead, because, as you point out, it forces 
everyone to move toward that objective. But I don't think it 
should be the deadline for the American military commitment in 
Afghanistan.
    Mr. Khalilzad. I agree, Congressman Ackerman, with the 
importance of having targets and timelines. I completely agree 
with that. But I want to complement what General Barno has said 
on the hardening of Afghanistan with the point that we--part of 
the hardening has got to be political with the Afghan 
Government. And we will talk about the Pakistan dimension of 
the problem we face, but there is an Afghan Government 
dimension that deals with issues of rule of law and governance.
    But if it doesn't, the gap between the government and the 
people will grow, and the military, no matter how much we build 
this, ultimately will not be sufficient to establish the kind 
of Afghan state, the vision, that I think General Barno or my 
friend Dr. Tellis described.
    So that track, the Pakistan dimension, what we do, what the 
Afghans do, is extremely important. And, unfortunately, in more 
recent years, we have not been as able to get the Afghan 
Government to perform as well as it must for the objectives to 
be realized.
    Mr. Tellis. If I may----
    Mr. Ackerman. Dr. Tellis.
    Mr. Tellis [continuing]. Just respond to that, too? I take 
your point that the deadline affects us in certain ways, and 
maybe in welcome ways. It provides focus to our campaign and 
forces us to do things smartly when we otherwise may not have. 
But we also have to recognize there are other groups there, the 
different objectives and different incentives. And for an 
adversary like the Taliban, what the deadline has done is 
simply given them room to hope that they can run down the 
clock, not to engage in serious negotiations with the 
government, with Afghanistan or with the coalition; to simply 
hold back their resources in the expectation that the real 
fight will come not before 2014, but after. So that is, you 
know, one of the consequences that we also have to keep in 
mind.
    Now, we can mitigate this if we had a clearer vision of 
what the post-2014 U.S. presence in Afghanistan would look 
like. What is the force structure we intend to leave behind? 
What are the objectives to which these forces will be committed 
to, and what is the extent of our commitment to supporting the 
Government of Afghanistan in combat operations as required?
    If these three other pieces of the puzzle are made more 
transparent, when the deadline was announced, then the downside 
with respect to perverse incentives with the Taliban could have 
been mitigated. Unfortunately, we didn't do that.
    Mr. Ackerman. Let me ask a bigger-picture question. What 
should our aid package look like in Pakistan? What is 
essential? What is not essential? Dr. Fair.
    Ms. Fair. So I am a big skeptic of USAID in Pakistan. And 
just more generally, it is not really clear that USAID business 
model really works. Many of the things that USAID have tried to 
do have actually just been totally inappropriate. Things like 
curriculum reform, educational systems are deeply sensitive 
national issues.
    And the worst thing is that USAID, for example, puts a 
budgetary amount on the table. It doesn't expect the Pakistanis 
to put an equivalent amount. All Pakistan does is simply shift 
the monies available to another account. We have no way, given 
our security posture, to actually make sure that those monies 
go where they need to go.
    Holbrooke, of course, tried to change the paradigm by 
moving away from these institutional contractors where there 
were layers of overhead, whereby much of the funds actually 
came back here and tried to move toward Pakistani NGOs. But 
anyone who actually knows Pakistan well knows that apart from 
the government itself, Pakistanis hold NGOs to be even more 
unaccountable and dubious. So we went from one bad but well-
characterized model to a model that wasn't terribly workable.
    So, you know, I think some of the fundamental things we 
have tried to do have really been misguided. I think that there 
is an urgent need to do things like infrastructure. You can see 
from Pakistan's flooding that the dam infrastructure that it 
has is really no longer appropriate, given the changing in the 
monsoon patterns. There is an urgent need for electricity, for 
roads. Road building is really important. But these are 
projects that can be actually executed. We can oversee some 
degree of quality.
    But, most importantly, this notion of USAID as a tool of 
counterinsurgency or counterterrorism, that USAID will make 
Pakistanis dislike us less and be more inclined to not support 
terrorism, there is no evidence for it, and it creates 
expectations that the United States simply can't meet.
    So I am a big fan in Pakistan of doing away with these 
transformational goals and doing more with less.
    Thank you.
    Mr. Chabot. The gentleman is recognized for an additional 2 
minutes, and then, unfortunately, he is going to have to leave, 
and I have got you all to myself. So I will let the gentleman 
go ahead here.
    Mr. Ackerman. And then you will really be in trouble.
    What about on the military side, do they need F-16s?
    Mr. Tellis. What they need more than anything else is 
counterterrorism assistance.
    Mr. Ackerman. Why are we giving them F-16s?
    Mr. Tellis. I don't know the answer to that, Congressman.
    Mr. Ackerman. I picked the wrong panel, probably, unless 
someone thinks they need that.
    Mr. Tellis. I don't think anyone can make the case that F-
16s actually help Pakistan's counterinsurgency exchange.
    General Barno. I think militarily, though, the F-16 is not 
the weapon of choice for a counterinsurgency campaign and not 
terribly helpful for counterterrorism. They do need a 
helicopter lift. They do need training in which they are 
resistant to in terms of how to conduct counterinsurgency 
operations. And I think the intelligence cooperation continues 
to be an important area where our interests do overlap, 
particularly regarding al Qaeda, and I think continuing that 
would be wise.
    Mr. Ackerman. Dr. Fair, you had said treat the Army, treat 
the military as the military, and the Secretary of State 
shouldn't be meeting with General Kayani; she should be meeting 
instead with Mr. Gilani. Who is running the country? Who is 
deciding the policy and foreign policy?
    Ms. Fair. You know, so there is a--I understand the 
compulsion to do one-stop shopping with the actual power 
center, but this idea just because we meet General Kayani or 
even General Pasha that somehow we are getting a more honest, 
transparent interaction is simply flawed. And, in fact, what we 
do is continue to bolster the political status of the military.
    Mr. Ackerman. But who is making the decisions?
    Ms. Fair. Well, obviously on most issues of foreign policy 
that we care about vis-a-vis India, it is going to be the Army 
chief.
    Mr. Ackerman. If the Secretary of State doesn't meet with 
the military, I don't think that is going to make them decide 
that the military shouldn't be making the decisions that a 
normalized kind of government----
    Ms. Fair. No, but it is about signaling the Pakistanis. And 
I have been going to Pakistan now for almost 20 years, and it 
is a perennial irritant to Pakistanis that Americans say that 
we support democracy and so forth, but if you actually look at 
our history, we supported the military.
    And let us be very clear about the F-16 canard. We didn't 
give them the F-16s because we thought it would enhance their 
counterterrorism or their counterinsurgency capabilities. We 
did it to placate Musharraf, we did it to placate Kayani, and 
it hasn't gotten us anywhere.
    If the Pakistanis want helicopters, they can buy 
helicopters. So far what they have wanted are weapon systems 
that can deal more effectively with India and have very little 
utility for their domestic threat. And we have--quite frankly, 
in our efforts to placate GHQ and to continue making the 
Director General of the ISI happy, we continue to go this path, 
and it completely undermines our regional interests in every 
possible way be it democratization of Pakistan, be it regional 
stability vis-a-vis India and Pakistan.
    Mr. Chabot. The gentleman's time has expired.
    Dr. Tellis--if I could just go one question, and then I am 
going to let you go. You had mentioned the term ``managed 
jihadism'' in your statement. Could you define that term and 
maybe expound upon it a bit? And what is your opinion about its 
chances for success and its implications?
    Mr. Tellis. I think of managed jihadism as the Pakistani 
strategy of supporting some terrorist groups by fighting other 
terrorist groups simultaneously. In effect, Pakistan's strategy 
since 2001 has been a highly differentiated counterterrorism 
strategy. They have identified groups that threaten the 
Pakistani state, and they have gone after them with a great 
deal of energy and concentration, and they have solicited 
assistance from the United States in support of that campaign. 
But even as they do so, they have been quite liberal in 
continuing assistance and support to other terrorist groups 
that don't necessarily threaten the Pakistani state, but 
threaten Afghanistan, threaten India and, by extension, 
threaten the United States. And they believe that they are able 
to, in a sense, manage the contradiction in this policy quite 
well. That is, as long as the threats that they sustain don't 
ricochet, don't come back to haunt them, they think the policy 
serves its purpose. It keeps India on a tight leash, it keeps 
Afghanistan deferential to Pakistan, and it keeps the United 
States in a continuing payoff mode trying to bribe Pakistan to 
do the right thing.
    Mr. Chabot. Doctor, in that, I guess, double game they are 
playing, the implications for, say, U.S. lives, especially our 
troops on the ground, that doesn't seem to be a particular 
concern to them in this effort. Would you agree with that?
    Mr. Tellis. I think they have--I think it is of concern. 
They have made the calculation, and they find that the strategy 
still serves their interests. That is, even though the end 
result of the strategy is that U.S. troops are threatened, they 
believe that Pakistan is so important that the United States 
will simply not call their bluff, will simply not call them on 
the impact of the strategy. And if you look at the record over 
the last 10 years, I regret to say that they have turned out to 
be right.
    Mr. Chabot. Dr. Fair and Ambassador Khalilzad, I saw you 
kind of nodding your heads and chomping at the bit there, so I 
will go to both of you, if I could, and then I am going to go 
to the gentleman from Virginia here.
    So, Dr. Fair.
    Ms. Fair. I really want to expand upon what Dr. Tellis has 
said. Let me give you a really good example of their 
coldhearted calculation that they can get away with this 
impunity. Lashkar-e-Tayyiba, the group we have already heard 
about that did the 2008 massacre, so they have been attacking 
our troops in Afghanistan since at least 2006, and probably, 
according to my interlocutors, maybe as early as 2004. And we 
have done very little, if anything, about it. And I have been 
raising this publicly.
    Another problem with their strategy--actually our 
understanding of their strategy is that many of the militant 
groups serve important domestic purposes for Pakistan. So, for 
example, Lashkar-e-Tayyiba, I have written a piece recently in 
Survival where I lay out Lashkar-e-Tayyiba's important domestic 
strategy and the importance of Lashkar to the ISI. Even groups 
that they are going after decisively, they are ultimately 
strained because particularly the Daobandi groups, they have 
these overlapping networks, which means that part of those 
networks are in the Punjab, and as long as they stay in the 
Punjab, i.e., useful to kill Indians, they won't go in and root 
them out. But those Punjab-based groups are actually some of 
the most lethal parts of the Pakistan Taliban.
    Very finally, the Pakistanis, I think, deliberately take 
advantage of the confusion between the Afghan Taliban and the 
Pakistan Taliban. They will say, we have lost X thousand troops 
fighting them, we have lost 35,000 Pakistani lives. I want to 
point out to you that the Pakistan Taliban itself is--in the 
same way Afghan Taliban are not coherent, there are actually 
some Pakistan Taliban commanders that are allies of the 
Pakistan state because they have agreed to not target the 
Pakistani state, but target us. Twenty-three billion dollars 
later, this is where we are.
    Mr. Chabot. Thank you, Doctor.
    And, Dr. Khalilzad.
    Mr. Khalilzad. Mr. Chairman, I accept and agree with the 
notion that Pakistan has a differentiated approach, supporting 
some, opposing others. I also believe that Pakistan's strategy 
and policy can be affected. We have not been as focused on 
affecting their support for insurgency as we have become more 
recently. I think it has been only in the last few months where 
we have really been sharply focused on it. And we have shown 
over the past many years that we--as long as we got cooperation 
on al Qaeda, we did not press them very hard and didn't make 
them pay a high price for supporting insurgency in Afghanistan.
    And so I don't want to say that the support for managed 
jihadism, as Dr. Tellis mentioned, is--independent of 
calculation, that it can't be influenced, it can't be shaped, 
and that is why I believe that we--as we increase the cost or 
as we--the message that the cost will grow for them out of this 
difficult time for us to do it as we--they think we are on our 
way out, but with an end point, as we described earlier, that 
there will be forces beyond 2014, and with the determination 
that we will impose costs if they don't change, and a 
willingness that we are willing to accept legitimate Pakistan 
interests be respected in Afghanistan, we may have a chance for 
something that may be acceptable to all sides to take place 
there.
    And I think this is the challenge for our diplomacy to 
orchestrate the set of pressures on both ourselves and, more 
broadly, with other big stakeholders in that region to 
incentivize Pakistan to accept a reasonable settlement that 
respects that interest. If they don't, then the cost will be 
quite significant for them.
    Mr. Chabot. Thank you very much.
    General, let me conclude here with a final question, if you 
don't mind. In light of what has been said here about the 
confusing landscape of this, how frustrating is it for our 
military personnel or men and women on the ground when you are 
not quite clear who your friends and allies are, and who the 
enemy is, and that sort of thing?
    General Barno. Well, I think those military forces that are 
up against the Pakistani border have great frustration with--
and this is particularly true in Eastern Afghanistan--with what 
they see of enemy elements coming across that border with 
impunity and attacking them inside of Afghanistan. And there 
have been numerous press reports. I heard reports while I was 
in Afghanistan from Americans about Taliban forces going right 
by Frontier Corps units from the Pakistani security services on 
their way in to attack Americans in Afghanistan.
    And, of course, the border is certainly more respected by 
our forces than it is by the Taliban, and so we do have some 
restrictions on our ability to engage across that border even 
if we have known targets there, known threats to Americans. 
That gets into the details of the rules of engagement, which we 
can't discuss in the open forum here, but it is very 
frustrating and very difficult, and it puts our forces in the 
east along the border in many cases at a tactical disadvantage.
    Mr. Chabot. Thank you.
    And the gentleman from the Commonwealth of Virginia is 
recognized. And then we will wrap it up, because I have to meet 
with the Parliamentarians from Afghanistan who were here 
before. So the gentleman is recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Dr. Tellis, how would you characterize the relationship 
between the Government of Pakistan or elements of the 
Government of Pakistan and the Haqqani network?
    Mr. Tellis. I think the Haqqani network for years has been 
supported by the ISI. It still continues to be supported by the 
ISI. And I do not see at this juncture why the ISI would 
retrench that support given the perception that there is going 
to be a security transition in Afghanistan. I think Admiral 
Mullen's characterization of the relationship between the 
Haqqanis and the ISI was absolutely on the mark.
    Mr. Connolly. Dr. Fair, what Dr. Tellis just described, if 
accurate, is antithetical to U.S. interests in the region; is 
it not?
    Ms. Fair. It absolutely is. I think one has to understand 
why Pakistan hangs onto these groups. This is probably where I 
get accused of being too soft on Pakistan, ironically. From 
Pakistan's optic over the last 10 years--and obviously Haqqani, 
we worked with them in the 1980s, and the Pakistanis make a lot 
of hay over that. But this is not the Haqqani. They are no 
longer working with us; they are working against us. But from 
the Pakistani point of view, their regional concerns have 
actually been injured over the course of the last 10 years.
    Many of Pakistan's concerns stem from India in Afghanistan. 
Now, we can debate whether or not it is empirically defensible, 
but that is how they do see the world. And the Haqqani network, 
though they don't control a lot of real estate in Afghanistan, 
they are very effective tools that they have used to kill 
Indians and obviously also to kill us.
    So you sort of dilate upon what Dr. Tellis said. When we 
understand the strategic motivations of Pakistan, this is why I 
am very cynical about our ability to succeed in Afghanistan, 
because Pakistan actually has more will to stay the course than 
we do. Pakistan sees more strategic interests at stake in 
Afghanistan than we do. So it is out of a really serious plan 
to put more pressure on Pakistan to cease supporting these 
terrorist groups. I don't know what it means to succeed in 
Afghanistan even if that is possible.
    Mr. Connolly. Do you believe that the Pakistanis believe 
that the relationship with the United States has strategic 
value?
    Ms. Fair. I do not, in some very serious sense. I think 
what the Pakistanis have become very accustomed to is taking 
advantage of historical events, and this has been true of every 
single period of engaging them; of saying that they support our 
strategic interests, while taking advantage of our cupidity, 
our gullibility, to take the massive aid that they get in each 
of those periods and funnel it into systems that really target 
their security interests, which have always been and always 
will be Indiacentric. And I believe that is how the Pakistani 
establishment sees it.
    I think we have been fools in trying to think that we can 
have a strategic relationship when our strategic interests 
differ. What they want is the goods without the obligation, and 
that is firmly what I believe.
    Mr. Connolly. I used to work up here during the Cold War. 
The relationship then was undergirded by the fact that the 
Indians tilted toward the Soviets, and the Pakistanis tilted 
toward us in the West. So one could at least explain away some 
aspects of the relationship, including our willingness to turn 
the other way on the proliferation issue at the time in the 
1980s because of that Cold War metric.
    But that is all gone, and India has in many ways become 
transformed, and the relationship between India and the United 
States is warming by the day at almost every level. And so how 
does that change the relationship you have just described? It 
seems to me the United States has some other options in the 
region, the fact that Pakistan is a nuclear power 
notwithstanding.
    Ms. Fair. Okay. So I think we can actually go back with the 
luxury of time and reread the Cold War history. The Pakistanis 
took advantage of our assistance to massively build up their 
armed forces, which had really--they didn't really inherent a 
full complement during partition. So in some sense the 
Pakistani motivation, they said, we are doing this for you.
    Even their Afghan policy--I really would like to point this 
out--they had developed essentially the seven militant groups 
by the mid-1970s under the Zulfikar Ali Bhutto. By the time the 
Soviets had crossed the Amu Darya, they already had those 
groups into play. So in some sense what the Pakistanis got from 
us was the ability to amplify the policies in the region that 
they had already wanted to pursue.
    But I think your question about our relationship with 
India, this is something else we have to understand about 
Pakistan. They see our relationship with India, and indeed we 
basically said India is not only the regional power, it is a 
rising global power of significant consequence. What Pakistan 
sees in that is that we expect them to acquiesce to Indian 
hegemony. So Pakistan's interests vis-a-vis India no longer 
simply center around Kashmir, it centers around resisting 
India's rise. Pakistan can't change that fact militarily; no 
one diplomatically in the world, with the exception of possibly 
the Chinese, although they are kind of a declining asset from 
some sense. The only tool Pakistan has is militancy, and this 
means Pakistan becomes more dangerous, not less. And that is 
why we have to find some way of productively engaging Pakistan 
while also holding it accountable.
    Mr. Chabot. The gentleman's time is expired.
    I want to thank the panel very much for their insight.
    Mr. Rohrabacher. Mr. Chairman.
    Mr. Chabot. Oh, I am sorry, I didn't see you over there 
Dana.
    I still want to thank you, but we will thank you for real 
in a minute here. We will recognize the gentleman from 
California, the ranking subcommittee chairman here, the 
gentleman from California, Mr. Dana Rohrabacher
    Mr. Rohrabacher. Well, we will see if you still thank them 
after I get done.
    Hey, Zal, good to see you. Good to see all of you. Some of 
us go back a long way. Well, it has been all this time, Zal. 
Did you make some mistakes; was that it? Is this all your 
fault? I mean, we ended up--you were the guiding light when we 
set this thing in motion, and now it is all screwed up.
    Mr. Khalilzad. Well, I don't know if this is a moment of 
self-flagellation or not. I am not known for that.
    Well, I believe more seriously that during the period that 
I had the honor of representing the United States in 
Afghanistan, that is what we are talking about, and I had 
General Barno with me, and I don't want them by saying he was 
with me that he should do self-flagellation as well. I thought 
we were doing very well, in my judgment. We liberated 
Afghanistan with very few Americans on the ground. We were very 
popular when we got there. Rather than governing Afghanistan, 
we catalyzed an agreement among them for a government. That 
government was a vast improvement over what they had before. An 
election, the Constitution, girls going to school and all that 
that you know.
    But I think there are two issues on which we didn't do as 
well as we might have. One I believe they should be spending a 
lot of time on today, which is the sanctuary that was being 
developed in Pakistan for the Taliban and the other insurgents. 
We did not succeed with the effort that we made to bring that 
change about, although I remember that we did establish a 
trilateral commission, and that I was pressing very hard in 
Washington that we needed a mechanism to change parts of the 
situation in Pakistan. And one mechanism that we came about, 
and General Barno was actually the chair of that, to bring 
Afghans, Pakistanis and us together to deal with this issue. 
But I think it is fair to say that our level of effort and what 
we tried did not produce the results we were seeking.
    Mr. Rohrabacher. So the number one thing you could point to 
was the fact that we did not pay attention to the sanctuaries?
    Mr. Khalilzad. In time.
    The second issue, I believe it is in relation to 
Afghanistan. One, I think we initially underinvested in the 
Afghan security force buildup because we thought Afghanistan 
being poor, that we didn't want to plan for a big force that 
they couldn't support themselves. And so, therefore, we were 
planning for a small force, and only in later years did that 
change.
    And second, I think that a working relationship, the trust 
relationship, that we had with the Afghan Government, which is 
related and a key issue for working together, has been 
undermined in more recent years. It is true that there is a 
huge--has been in recent years a great trust deficit between us 
and the Afghan leadership. And in combination, I think, of the 
Pakistan factor, the Afghan institutions, those two related, if 
the Pakistani issue had been dealt with, perhaps we wouldn't 
need as big an Afghan security force as we do now and the 
Afghan Government trust issue have been a factor.
    Mr. Rohrabacher. Let us get back to your point. You are 
suggesting we underinvested in the security buildup. And let me 
suggest there are those of us, as you are well aware, that 
think that the strategy of a centralized defense buildup was 
the wrong strategy to begin with. And I remember when General 
Dostum, and the Tajiks, and the Uzbeks and our warlords in the 
north who would help defeat the Taliban were disarmed, and 
instead we went with General Wardak to create a national force. 
Was that not the wrong decision? Should we have kept the 
traditional militia system as the basis for Afghan defense 
against the Taliban rather than trying to create a central 
force?
    Mr. Khalilzad. I know that you and I have had some of these 
issues. We have discussed them before. But let me say that at 
that time, the challenge that Afghanistan faced given the 
anarchy of the 1990s, the fear that existed was a return to 
warlordism as it was described and a civil war situation that 
then led to the rise of the Taliban. And what the Afghans were 
looking for was with nostalgia to a period of----
    Mr. Rohrabacher. When the King was there, my guy.
    Mr. Khalilzad. The King. And there were central 
institutions, a national army and other insurgents, and 
therefore they wanted to go to do that again. And as in many 
such postconflict situations, there was an effort to DDR--
decommission, demobilize and reintegrate--the regional forces 
what helped us overthrow the Taliban into the central 
institutions. It was not that Afghanistan had suffered from 
having too much of a state, that, therefore, they wanted the 
decentralized approach. And as you know, I went to Iraq, as the 
chairman said, from Afghanistan, and there they had suffered 
under a very centralized state, and they wanted very much 
what--a Federal state. But Afghanistan had the opposite 
experience.
    So we could argue about this. I mean, maybe honorable 
people could differ on it. But that was the circumstances of 
that time to which we were responding. We didn't go with a 
cookie-cutter approach that we liberated Iraq, they should have 
this, and we liberated Afghanistan, they should have that.
    Mr. Rohrabacher. I think the point you make that honorable 
people of intelligence can disagree----
    Mr. Khalilzad. Absolutely.
    Mr. Rohrabacher [continuing]. Is an important point. And I 
do disagree and have disagreed with some of the things, but I 
have enjoyed our sparring over a decade.
    Mr. Khalilzad. Yes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you.
    The gentleman's time has expired.
    We now will thank the panel effusively for the tremendous 
testimony. I think you have all done a very good job this 
afternoon. It has been of considerable help. We will pass on 
the information that we learn, and our staffs will, to our 
colleagues who were unable to be here this afternoon, but are 
here in spirit. So thank you all for coming.
    If there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 3:54 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
